Centers for Medicare and Medicaid Services (CMS) | Office of Inspector General
Follow-up Review of the Medicaid Drug Rebate ProgramIn Michigan
July 8, 2008 | Audit A-05-08-00014
Executive Summary
The Michigan Department of Community Health understated the accounts receivable balance by $84.5 million on the Form CMS-64.9R as of June 30, 2006.
Complete Report
Download the complete report  (PDF)
Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
Return to CMS